U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



     FOOD STAMP PROGRAM
 ELECTRONIC BENEFIT TRANSFER
 SYSTEM DEVELOPMENT REVIEW
     STATE OF WASHINGTON




              Report No.
              27099-14-SF
              April 2001
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                       Western Region - Audit
                                   75 Hawthorne Street, Suite 200
                                  San Francisco, California 94105
                               TEL: 415-744-2851 FAX: 415-744-2871



DATE:                April 13, 2001

REPLY TO
ATTN OF:      27099-14-SF

TO:         Allen Ng
             Regional Administrator
             Western Region
             Food and Nutrition Service

ATTN:         Tony Sommer, Sr.
              Acting Director
              Financial Management

SUBJECT:      Electronic Benefit Transfer System for the Food Stamp Program –
              System Development Review
              State of Washington


This report presents the results of our review of the development of the Food Stamp
Program (FSP) electronic benefit transfer (EBT) system in the State of Washington.
With funding from the Food and Nutrition Service (FNS), the Washington Department of
Social and Health Services (DSHS) contracted with Citicorp Services to develop the
system. Our objectives were to determine the adequacy of internal controls and to
assess whether those controls were functioning as designed. Overall, our review did
not disclose any conditions that would cause us to question the integrity of the system.
We concluded that FNS and DSHS appeared to have sufficient controls and
procedures to ensure that benefit cards were properly issued, unissued benefit cards
were secure, and EBT data was protected against unauthorized access.

BACKGROUND

FNS administers the FSP, which assists low-income households by increasing their
ability to purchase food. The FSP is a Federal-State partnership with the Federal
Government paying the full cost of recipient benefits and at least half of the expenses
incurred by the States to administer the program.

In 1977, the Food Stamp Act authorized FNS to issue program benefits using
electronic data processing such as an EBT system. EBT provides benefit access
through automated teller machines and point-of-sale terminals located at approved
Allen Ng                                                                               2


retailers. It replaces the paper-based coupon system with an electronic system. The
Personal Responsibility and Work Opportunity Reconciliation Act of 1996 provided that
all States must implement EBT systems before October 1, 2002.

The State of Washington began its pilot EBT system in April 1999 with seven counties.
 Each month, the State added additional counties until statewide participation was
completed in November 1999. The State contracted with Citicorp Services, Inc. and
implemented an on-line magnetic card EBT system that uses the existing card
technology developed by credit card companies. DSHS provides a plastic benefit card
to each FSP household. The card has a magnetic strip containing basic information to
make food purchases. At an authorized FSP retailer, the recipient presents the card
and enters a personal identification number into a point-of-sale terminal. The terminal
communicates with a central database, which maintains recipient account balance
information.    DSHS’ central database verifies the amount of benefits available,
authorizes the transaction, and deducts the purchase amount from the household’s
account.

The system also calculates the cumulative FSP sales for each retailer and authorizes
payment electronically to the retailers’ bank accounts daily. FNS field offices authorize
retailer participation in the FSP. Citicorp Services, Inc. has access to FNS’ Retailer
EBT Data Exchange System, which lists retailers that have current authorization.

OBJECTIVE

Our objectives were to evaluate the adequacy of internal controls and to assess
whether those controls were functioning as designed.

SCOPE

This audit was part of a nationwide review of the EBT system. We reviewed the State of
Washington’s EBT system since its inception in April 1999 and the controls established
by DSHS to ensure the integrity of the system. Fieldwork was performed from May 15,
2000, through August 10, 2000, at the (1) FNS Regional Office in San Francisco,
California, (2) DSHS State Office in Lacey, Washington, (3) local field office in
Tumwater, Washington, and (4) two Safeway stores located in Vancouver, Washington.

This audit was performed in accordance with generally accepted government auditing
standards.



METHODOLOGY

To accomplish our objectives, we performed the following procedures:

   •   We interviewed officials and reviewed EBT policies, program procedures, and
       correspondence at FNS and DSHS;
Allen Ng                                                                              3


    • At DSHS, we also reviewed EBT operating controls to ensure the integrity of the
      system; and

    • At the field office, we identified and assessed internal controls in key operating
      areas.

AUDIT RESULTS

Overall, our review did not disclose any conditions that would cause us to question the
integrity of the system. We concluded that FNS and DSHS appeared to have sufficient
controls and procedures to ensure that benefit cards were properly issued, unissued
benefit cards were secure, and EBT data was protected against unauthorized access.

Since we have no findings or recommendations to report, we will notify the Office of the
Chief Financial Officer that no further action is required by FNS.

We appreciate the assistance and cooperation of your staff during our review.




/s/ by B. Gladfelter for

SAM W. CURRIE
Regional Inspector General
 for Audit
EXHIBIT A - AUDIT SITES


                OFFICE                                   LOCATION

FOOD AND NUTRTION SERVICE, WESTERN   San Francisco, California
REGIONAL OFFICE


DEPARTMENT OF SOCIAL AND HEALTH      Lacey, Washington
SERVICES


LOCAL AREA OFFICE                    Tumwater, Washington


                                                nd
SAFEWAY STORE                        2913 NE 72 Avenue
                                     Vancouver, Washington


                                                rd
SAFEWAY STORE                        6611 NE 63 Street
                                     Vancouver, Washington
